WAIVER

Supreme Court of the United States

No. 19-889

Kaufman County, Texas, et al. v. Eunice J. Winzer, Individually and on
Behalf of the Statutory Beneficiaries of
Gabriel A. Winzer, et al.
(Petitioners) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless

one is requested by the Court.
Please check the appropriate boxes:
& Please enter my appearance as Counsel of Record for all respondents.

QO There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

4% Iam a member of the Bar of the Supreme Court of the United States.

O Iam not pregently a member of the Bar of this Court. Should a response be requested,
the respons¢ will be filed by a Bar membgr.

 

 

Signature

February 18, 2020
Date:

 

Matthew J. Kita

 

(Type or print) Name.

 

 

 

BH Mr. OMs. O Mrs. O Miss
Firm,
wtirenes P.O. Box 5119
City & State Dallas, Texas Zip 75208
PHewe (214) 699-1863

 

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: S. Cass Weiland (cass.weiland@squirepb.com)
Squire Patton Boggs (US) LLP; 2000 McKinney Avenye, Suite 1700
Dallas, Texas 75201

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
